OIG Investigative Reports, Former Department of Education Program Specialist Pleads Guilty to Accepting a Gratuity
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
U.S. Department of Justice
Kenneth L. Wainstein
United States Attorney for the
District of Columbia
Judiciary Center
555 4th Street, N.W.
Washington, D.C.  20530
PRESS RELEASE
FOR IMMEDIATE RELEASE
Wednesday, July 26, 2006
For Information Contact Public Affairs
Channing Phillips     (202)514-6933
www.usdoj.gov/usao/dc
FORMER DEPT. OF EDUCATION PROGRAM SPECIALIST PLEADS GUILTY TO ACCEPTING A GRATUITY
Washington, D.C. - A former U.S. Department of Education Program Specialist, Ramon Rodriguez, has pleaded guilty to accepting $10,000 from the president of a company that had been awarded a contract from a Department of Education grantee to install computers at schools in California and Oregon, U.S. Attorney Kenneth L. Wainstein, John Higgins, Inspector General for the Office of Inspector General for the United States Department of Education, and Joseph Persichini, Jr., Acting Assistant Director in Charge of the FBI's Washington Field Office, announced today.
Rodriguez, 76, of Alexandria, Virginia, entered a plea of
guilty today in U.S. District Court before the Honorable Royce C.
Lamberth to the charge of offering, giving, soliciting, or
receiving a gratuity. Pursuant to the terms of the plea,
Rodriguez could receive a maximum of two years of imprisonment
when he is sentenced before the Honorable Royce C. Lamberth on
October 20, 2006.
"There is no room in our government for those who abuse
their positions for private gain," stated U.S. Attorney
Wainstein. "By accepting cash from a private contractor, this
public official compromised the integrity of the Department of
Education's grantee contracting process and violated his duty as
a public servant."
"Accountability applies to everyone," said John P. Higgins,
Inspector General of the U.S. Department of Education. "We will
continue to aggressively pursue those who seek to enrich
themselves at the expense of our nation's students and taxpayers,
especially those in a position of trust like Mr. Rodriguez."
According to the statement of the offense agreed to by
Rodriguez and the government, between January 1, 2003 and July 1,
2005, Rodriguez was employed as an Education Program Specialist
in the Office of Special Education and Rehabilitative Services at
the United States Department of Education's office in Washington,
D.C. In his capacity as Program Specialist, Rodriguez was
responsible for monitoring numerous grants worth millions of
dollars awarded by the United States Department of Education to
educational institutions that provide services to the deaf and
hearing-impaired community. Grantees were required to provide
project updates to Rodriguez and to obtain his approval for
various aspects of their grant projects, including, in some
cases, the expenditure of grant funds.
In November 2004, the Department of Education's Office of
the Inspector General began investigating Rodriguez after
receiving a complaint alleging that Rodriguez was attempting to
influence a grantee to hire his girlfriend as an employee or
consultant through a private company and that Rodriguez was
friends with the president of this company.
Investigators subsequently learned that Rodriguez had tried
to influence a grantee in California to hire his girlfriend and
to enter into a contract for grant-related services with the
private company. Rodriguez was the Project Officer in charge of
reviewing the grantee's expenditures and ensuring its compliance
with regulations.
In September 2005, Rodriguez agreed to speak to agents from
the U.S. Department of Education's Office of the Inspector
General and the FBI's Washington Field Office. Rodriguez told
the agents that the private company's president had hired his
girlfriend as the Research Director for a contract that the
company had negotiated with the grantee in January 2005.
Rodriguez stated that he had consulted with the private company
in a "broad sense," providing the company's president with ideas
for strategic planning, brainstorming, and marketing.
Rodriguez admitted that the company's president had told him
that he would be able to pay Rodriguez for services he had
provided over the past couple of years if the company received
the contract with the California grantee. The company's
president subsequently paid him $10,000 in cash in two separate
installments between January and May 2005 for services Rodriguez
had provided to the company over the past 25 years. The
installments corresponded to the installment payments the company
had received pursuant to its contract with the grantee.
Rodriguez admitted to the agents that he tried to shield the
company's payments by requesting that he be paid in cash and not
by check. Rodriguez stated that neither Department of Education
officials or supervisors nor the grantee's officials were aware
of the cash payments by the company to him.
In announcing the guilty plea, United States Attorney
Wainstein, Inspector General Higgins, and Assistant Director in
Charge Persichini commended the outstanding efforts of Special
Agent Ronald Wormsley, Jr. of the Department of Education's
Inspector General's Office and Special Agent Eric Parris of the
Washington Field Office of the FBI. They also thanked Assistant
United States Attorney Kim Herd, who prosecuted the case.
Top
Printable view
Share this page
Last Modified: 08/10/2006
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov